In the Supreme Court of the United States
No. 20-909

IQBAL S. RANDHAWA,
Petitioner,
ve

BANK OF NEW YORK MELLON, FKA
Bank of New York, Successor to JPMorgan Chase Bank, NA, ie
as trustee, on behalf of the holders of the
Structured Asset Mortgage Investment II Inc.,
Bear Stearns Alt-A, Mortgage Pass-Through
Certificates, Series 2004-12,

>

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ
of certiorari contains 2,947 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).

    
     
  

I declare under penalty of perjury that the foregoing is#rye and correet.
Executed on March 23, 2021

Submitted,

Bethesda, Maryland 20814
(301) 986-5570
jpels@pelslaw.com
